W^lje ^npvBxne (d&uvt ai (Bbfia

mil H

!•':

W i:

—-JPR 13 Ml
CLERK OF COURT
SuPREHE COURT OF OHIO
State of Ohio

Case No. 2021-0154

v.

ENTRY

Kenan Ivery
Upon consideration of the jurisdictional memoranda filed in this case, the court
declines to accept jurisdiction of the appeal pursuant to S.Ct.Prac.R. 7.08(B)(4).
(Summit County Court of Appeals; No. 28551)

Maureen O’Connor
Chief Justice

APPENDIX B

The Official Case Announcement can be found at http://www.supremecourt.ohio.gov/ROD/docs/

ORD-DECI

06/17/2020 09:02:16 AM

CA-28551

STATE OF OHIO

)

COUNTY OF SUMMIT

-)ss:
)

Page 1 of 18

IN THE COURT OF APPEALS
■NINTH-JUDICIAL DISTRICT—
C.A.No.

STATE OF OHIO

28551

Appellee
APPEAL FROM JUDGMENT
ENTERED IN THE
COURT OF COMMON PLEAS
COUNTY OF SUMMIT, OHIO
CASE No.
CR14 12 3681

v.
KENAN IVERY
Appellant

DECISION AND JOURNAL ENTRY
Dated: June 17,2020

CARR, Presiding Judge.
flfl}

Kenan Ivery moved to reopen his appeal from his convictions from the Summit

County Court of Common Pleas. This Court granted his application, and this matter is now before
us for decision. For the reasons that follow, we confirm our prior decision.
I.
fl[2)

In State v. Graves, this Court explained our obligations in a reopened appeal as

follows:
Under Rule 26(B)(9) of the Ohio Rules of Appellate Procedure, “[i]f th[is] [C]ourt
finds that the performance of appellate counsel was deficient and the applicant was
prejudiced by that deficiency, [it] shall vacate its prior judgment and enter the
appropriate judgment. If th[is][C]ourt does not so find, [it] shall issue an order
confirming its prior judgment.” Deficient performance by a lawyer is a
performance that falls below an objective standard of reasonable representation.
State v. Hale, 119 Ohio St 3d 118, 2008-Ohio-3426, at f 204 (citing Strickland v.
Washington, 466 U.S. 668, 687-88 (1984)). A defendant is prejudiced by the
deficiency if there is a reasonable probability that but for his lawyer’s errors, the
result of the proceeding would have been different. Id. (citing Strickland v.
Washington, 466 U.S. 668,694 (1984)). “A reasonable probability is a probability
sufficient to undermine confidence in the outcome.” Strickland, 466 U.S. at 694.

APPENDIX A
Sandra Kurt, Summit County Clerk of Courts

'

Ic

I,

CA-28551

06/17/2020 09:02:16 AM

ORD-DECI

Page 2 of 18

2

(Alterations sic.) 9thDist. Lorain No. 08CA009397,2011-Ohio-5997, % 9. With those obligations ~
in mind, we now turn to the relevant facts and procedural history of this case.
fl|3}

This Court previously set forth the factual and procedural background of this case

as follows:
Tiffany, the manager of Papa Don’s Pub in Akron, testified that she and her fiancd,
Justin (an Akron police officer), went to Papa Don’s the evening of November 15,
2014, to hang out. According to Tiffany, Ann Marie—a bar patron known to
Tiffany—approached Tiffany and told her that Kenan Ivery made comments to her
that made her feel uncomfortable. According to Ann Marie, Ivery aggressively
tried to get her attention because he wanted her to come over and talk to him. Ann
Marie declined his advances and told him she had a boyfriend, who was also in the
bar. Ivery then got out of his seat and said “I don’t care. I have a 40[,]” which Ann
Marie assumed referred to a 40-ounce beer. Ann Marie indicated that she was
“creeped * * * out,” and that Ivery made her nervous, so she went and sat next to
her boyfriend.
When Ivery later saw Ann Marie talking to Tiffany, he immediately approached
and, according to Tiffany, became angry. Ann Marie went back to her seat and
Tiffany tried to calm Ivery down and defuse the situation. Meanwhile, Justin and
a bar employee asked Tiffany if she needed assistance, which she declined.
Realizing that Ivery was not going to calm down, Tiffany ultimately asked him to
leave, and told the bartender to bring Ivery his check and a box for the chicken
wings he had ordered. Ivery paid his bill but, according to the bartender, Ivery said
“I don’t want these fucking wings[,]” and pushed them to the side. As Ivery was
walking out of the bar, he stopped to talk to Justin. An employee overheard Ivery
tell Justin “I will smack that bitch” two or three times before Ivery exited the bar
without further incident
About eight minutes later, Ivery returned to the bar. Tiffany immediately
approached him and told him to leave, to which he responded ‘I’m not alone
anymore.” This confused Tiffany because she did not see anyone with Ivery. “Big
Dave,” a regular patron of the bar, walked over and also told Ivery to leave. Ivery
then showed Tiffany the barrel of a gun in his waistband. Realizing she needed
assistance, Tiffany reached for Justin and told him that Ivery had a gun. Justin
stood up from his seat and approached Ivery. Another patron, Dave E., saw Ivery
pulling his shirt up, touching the gun in his waistband, and talking to Justin. Dave
E. then began walking toward the men and saw Ivery pull the gun out of his
waistband. Dave E. grabbed Ivery’s right arm in an attempt to take the gun from
him. At that point, Ivery was surrounded by Justin, Big Dave, and Dave E., who
then shoved Ivery. The four men fell into a “big dog pile” near the front door and
Ivery fired several shots. The shots struck Justin, Big Dave, and two other patrons.

Sandra Kurt, Summit County Clerk of Courts

06/17/2020 09:02:16 AM

CA-285S1

ORD-DECI

Page 3 of 18

3

The shots also grazed another patron and went through Dave E.’s j acket. Ivery then
fled from the scene on foot, and the police and EMS arrived shortly thereafter.
Justin later died as a result of the gunshot wounds, but the other injured patrons
ultimately recovered from their injuries.
Having briefly summarized the State’s evidence, we now turn to the evidence
presented by the defense. Ivery testified on his own behalf. According to him, he
offered to buy Ann Marie a drink several times, which she declined. After Ann
Marie told him she had a boyfriend, he told her he “ha[d] a 40 on [him,]” meaning
he had a .40-caliber pistol on him, because he felt threatened. As soon as he saw
Ann Marie approach Tiffany, he walked over to the women. Tiffany indicated that
Ann Marie told her he had called her a derogatory name, which he denied doing.
Tiffany then asked him to leave and, after a brief conversation, he started to walk
out of the bar. Before exiting, he stopped to talk to Justin because he recognized
him from a fundraising event earlier in the night. Ivery then exited the bar, got into
his car, and headed home. While on his way home, he realized that he left his
chicken wings at the bar, so he returned to get them.
Upon p.ntftring the bar, Big Dave approached him and told him to never talk to or
touch Ann Marie again, and threatened to beat him up. Tiffany positioned herself
between Ivery and Big Dave, at which point Ivery lifted his shirt several times to
reveal his gun. He then noticed Justin and Dave E. moving toward him, and Big
Dave moving closer. At that point, he became fearful because he thought the men
were reaching for his gun. As the men were touching and shoving him he began to
fall backward and—fearing for his life—he fired several shots. After he fired the
shots his gun fell to the ground, so he fled from the scene because he was afraid
someone would pick it up and use it against him. He then ran to a field where the
police eventually arrested him.
After a multi-day trial, the jury found Ivery guilty of aggravated murder, murder,
attempted murder, and felonious assault, as well as the firearm specifications that
accompanied those counts. The jury also found Ivery guilty of having a weapon
while under disability, carrying a concealed weapon, and illegal possession of a
firearm in liquor permit premises. After merging some of the counts and
accompanying specifications, the trial court sentenced Ivery to life imprisonment
without the possibility of parole for the aggravated murder count, as well as
additional sentences for the remaining convictions.
State v. Ivery, 9th Dist Summit No. 28551,2018-Ohio-2177, U 3-8.
fl[4}

In his direct appeal, Mr. Ivery raised four assignments of error, asserting that: (1)

the trial court erred by refusing to instruct the jury on voluntary manslaughter and reckless
homicide; (2) some of his convictions were not supported by sufficient evidence or the manifest-

Sandra Kurt, Summit County Clerk of Courts

06/17/2020 09:02:16 AM

CA-28551

ORD-DECI

Page 4 of 18

4

weight of the evidence; (3) the trial court erred by denying a Batson challenge; and (4) the trial
court erred by allowing the State to elicit expert testimony from lay witnesses. This Court held
that the trial court did not err by refusing to instruct the jury on voluntary manslaughter, and that
Mr. Ivery failed to develop an argument relative to the reckless-homicide instruction. We,
therefore, overruled that assignment of error. Id at If 15. We likewise overruled Mr. Ivery’s
assignment of error challenging the sufficiency and manifest weight of the evidence on the basis
that he failed to develop arguments in support of his position. Id. at f 18. Regarding his assignment
of error related to the Batson challenge, this Court concluded that Batson did not apply because
the trial court removed the juror at issue for cause. Id at 21-22. We, therefore, overruled that
assignment of error. Id. at ^ 22. Lastly, regarding Mr. Ivery’s assertion that the trial court erred
by allowing the State to elicit expert testimony from lay witnesses, this Court concluded that Mr.
Ivery failed to demonstrate how any error in that regard materially prejudiced him. Id at 25.
We, therefore, overruled that assignment of error. Id. Having overruled all of Mr. Ivery’s
assignments of error, this Court affirmed the decision of the trial court. Id at % 26.
fl[5}

Mr. Ivery moved for reconsideration, which this Court denied. He then moved for

reopening on the basis that his prior appellate counsel rendered ineffective assistance. This Court
granted his application. In his reopened appeal, Mr. Ivery has raised four assignments of error
and, pursuant to Appellate Rule 26(B)(7), has addressed the claim that his prior appellate counsel
rendered ineffective assistance.
II.
ASSIGNMENT OF ERROR I
THE EVIDENCE IN THIS CASE WAS INSUFFICIENT AS A MATTER OF
LAW TO SUPPORT THE CONVICTIONS FOR AGGRAVATED MURDER,
MURDER, ATTEMPTED MURDER AND FELONIOUS ASSAULT.

Sandra Kurt, Summit County Clerk of Courts

06/17/2020 09:02:16 AM

CA-28SS1

ORD-DECI

Page 5 of 18

5
fl[6}

In his first assignment of error, Mr. Ivery argues that the State failed to present

sufficient evidence to support his convictions for aggravated murder, murder, attempted murder,
and felonious assault. His argument in this regard is primarily based upon the State’s alleged
failure to prove the mens rea for those crimes. He also argues that his prior appellate counsel
rendered ineffective assistance by failing to develop this argument in his prior appeal. For the
reasons that follow, this Court disagrees.
fl[7}

A sufficiency challenge of a criminal conviction presents a question of law, which

we review de novo. State v. Thompkins, 78 Ohio St.3d 380, 386 (1997). “[T]he relevant inquiry
is whether, after viewing the evidence in a light most favorable to the prosecution, any rational
trier of fact could have found the essential elements of the crime proven beyond a reasonable
doubt.” State v. Jenks, 61 Ohio St3d 259 (1991), paragraph two of the syllabus. Although we
conduct a de novo review, “we neither resolve evidentiary conflicts nor assess the credibility of
witnesses, as both are functions reserved for the trier of fact.” State v. Jones, 1st Dist Hamilton
Nos. C-120570, C-120571,2013-Ohio-4775,133.
fl[8}

Because Mr. Ivery’s challenge to the sufficiency of the evidence is primarily based

upon the State’s alleged failure to prove the mens rea for his convictions, we begin our analysis by
setting forth the required mens rea for those crimes. The jury convicted Mr. Ivery of aggravated
murder under Section 2903.01(A), murder under Sections 2903.02(A) and 2903.02(B), attempted
murder under Sections 2923.02 and 2903.02(A), and felonious assault under Section
2903.11(A)(2).

Aggravated murder under Section 2903.01(A) and murder under Section

2903.02(A) require the State to prove that die defendant acted “purposely[,]” with aggravated
murder having the additional requirement that the State prove “prior calculation and design[.]”
Murder under Section 2903.02(B) (with the predicate offense of felonious assault) requires the

Sandra Kurt, Summit County Clerk of Courts

06/17/2020 09:02:16 AM

CA-28551

ORD-DECI

Page 6 of 18

6
State to prove that the defendant acted “knowingly[.]” See State v. Fry, 125 Ohio St3d 163,2010Ohio-1017, f 43 (stating that “the predicate offense contains the mens rea element for felony
murder.”); RC. 2903.11(A)(2). Attempted murder under Sections 2923.02(A) and 2909.02(A)
requires the State to prove that the defendant acted “purposely or knowingly[.]” Lastly, felonious
assault under Section 2903.11(A)(2) requires the State to prove that the defendant acted
“knowingly[.]”
fl[9)

Section 2901.22 defines “purposely” and “knowingly” as follows:

A person acts purposely when it is the person’s specific intention to cause a certain
result, or, when the gist of the offense is a prohibition against conduct of a certain
nature, regardless of what the offender intends to accomplish thereby, it is the
offender’s specific intention to engage in conduct of that nature.
A person acts knowingly, regardless of purpose, when die person is aware that the
person’s conduct will probably cause a certain result or will probably be of a certain
nature. A person has knowledge of circumstances when the person is aware that
such circumstances probably exist. When knowledge of the existence of a
particular fact is an element of an offense, such knowledge is established if a person
subjectively believes that there is a high probability of its existence and fails to
make inquiry or acts with a conscious purpose to avoid learning the fact.
R.C. 2901.22(A) and R.C. 2901.22(B). “In determining whether a defendant acted purposely, ‘ [a]
defendant’s state of mind may be inferred from the totality of the surrounding circumstances.’”
State v. Patel, 9th Dist. Summit No. 24030,2008-Ohio-4693, f 34, quoting State v. Sullivan, 9th
Dist. Medina No. 07CA0076-M, 2008-0hio-2390, \ 10. Similarly, “whether a person acts
knowingly can only be determined, absent a defendant’s admission, from all the surrounding facts
and circumstances, including the doing of the act itself.” (Alteration omitted) State v. Murphy,
9th Dist. Summit No. 24753,2010-0hio-1038, H15, quoting State v. Huff, 145 Ohio App.3d 555,
563 (1st Dist.2001). The difference between “knowingly” and “purposely” is that “‘knowingly’
does not require the offender to have the specific intent to cause a certain result[.]” (Emphasis
sic.) Murphy at f 15, quoting State v. Powell, 11th Dist. Lake No. 2007-L-187,2009-Ohio-2822,

Sandra Kurt, Summit County Clerk of Courts

CA-28SS1

06/17/2020<09:02:16 AM

ORD-DECI

Page 7 of 18

7

I 49. That said, “if a given result is probable, a person will be held to have acted knowingly to
achieve -it because one is charged by the law with knowledge of the reasonable and probable
consequences of his own acts.” (Alteration omitted.) Murphy at 15, quoting State v. Dixon, 8th
Dist. Cuyahoga No. 82951,2004-0hio-2406, f 16.
fl[10} In support of his assignment of error, Mr. Ivery first argues that the State failed to
present sufficient evidence to support his aggravated-murder conviction because the State failed
to present sufficient evidence to establish that be acted purposely with prior calculation and design
to kill Justin. Section 2903.01(A) governs aggravated murder and provides that “[n]o person shall
purposely, and with prior calculation and design, cause the death of another[.]” In determining
whether a defendant acted “purposely,” “[a] jury may infer a defendant’s purpose to cause death
when the defendant inflicts a wound with a deadly weapon in a manner that appears to be
calculated to destroy life or inflict great bodily harm.” State v. Shorter, 7th Dist. Mahoning No.
II MA 42, 2012-0hio-2701, K 16, citing State v. Stallings, 89 Ohio St.3d 280, 291 (2000).
Relevant to this case, “a firearm is an inherently dangerous instrumentality, the use of which is
reasonably likely to produce death[.]” State v. Widner, 69 Ohio St.2d 267, 270 (1982). Further,
as this Court has stated, “‘ [pjrior calculation and design’ denotes ‘sufficient time and opportunity
for the planning of an act of homicide to constitute prior calculation’ coupled with circumstances
that demonstrate ‘a scheme designed to implement the calculated decision to kill[.]’” State v.
Guerra, 9th Dist. Lorain No. 12CA010188,2013-Ohio-5367, f 6, quoting State v. Cotton, 56 Ohio
St.2d 8 (1978), paragraph three of the syllabus. A prolonged period of deliberation is unnecessary,
and “prior calculation and design can be found even when the killer quickly conceived and
executed the plan to kill within a few minutes.” State v. Coley, 93 Ohio St3d 253, 264 (2001);
State v. Hairston, 9th Dist. Lorain No. 05CA008768,2006-Ohio-4925, f 80. “There is no bright-

Sandra Kurt, Summit County Clerk of Courts

06/17/2020 09:02:16 AM

1551

ORD-DECI

Page 8 of 18

8
line test for determining whether a defendant acted with prior calculation and design, so courts
consider the totality of the circumstances in each case,” which can include whether the defendant
gave thought or preparation to choosing the murder weapon. Guerra at ^ 6, citing State v. Taylor,
78 Ohio St.3d 15,19 (1997).
flfll} The State presented evidence at trial indicating that Mr. Ivery left the bar after an
argument, retrieved a gun, and then returned to the bar about eight minutes later. Upon his return,
he told at least one bar patron that he was not alone anymore, and lifted his shirt several times to
reveal a gun tucked into his waistband. As Justin and other bar patrons approached him, Mr. Ivery
drew the gun from his waistband. A struggle ensued, and Mr. Ivery fired several shots, two of
which struck Justin in the torso. Justin later died as a result of those wounds. Viewing the totality
of the circumstances in a light most favorable to the State, this Court concludes that a rational trier
of fact could have found die essential elements of aggravated murder proven beyond a reasonable
doubt
Mr. Ivery next argues that the State presented insufficient evidence to support his
murder conviction because it failed to establish that he purposely killed Justin. Section 2903.02(A)
governs murder and provides that “[n]o person shall purposely cause the death of another[.]”
Given this Court’s determination that the State presented sufficient evidence to support his
aggravated-murder conviction, we likewise determine that the State presented sufficient evidence
to support Mr. Ivery’s murder conviction. See State v. Monroe, 105 Ohio St. 3d 384,2005-Ohio2282, U 36 (noting that murder is a lesser-included offense of aggravated murder, and that “[t]he
sole difference is that prior calculation and design is absent from murder.”).
fl[13} Next, Mr. Ivery argues that the State presented insufficient evidence to support his
felony-murder conviction. Section 2903.02(B) governs felony murder and provides that “[n]o

Sandra Kurt, Summit County Clerk of Courts

06/17/2020 00:02:16 AM

CA-28SS1

ORD-DECI

Page 9 of 18

9
person shall cause the death of another as a proximate result of the offender’s committing or
attempting to commit an offense of violence that is a felony of the first or second degree and that
is not [voluntary manslaughter or involuntary manslaughter.]” The predicate offense in this case
was felonious assault under Section 2903.11(A)(2), which provides that “[n]o person shall

knowingly *

* *

[cjause or attempt to cause physical harm to another *

* *

by means of a deadly

weapon or dangerous ordnance.” Section 2903.11(D)(1)(a) provides that felonious assault is a
first or second degree felony depending upon whether the victim “is a peace officer or an
investigator of the bureau of criminal identification and investigation[.]” Either way, “[e]vidence
that a defendant fired a gun in a person’s direction is sufficient evidence that the defendant acted
knowingly for the purpose of a felonious assault conviction.” State v. Fox, 10th Dist. Franklin No.
17AP-295,2018-Ohio-501, If 14.
Here, the State presented evidence demonstrating that Mr. Ivexy fired his gun in
Justin’s direction, that Justin was shot twice in the torso, and that he died as a result of those
wounds. Viewing this evidence in a light most favorable to the State, this Court concludes that a
rational trier of fact could have found die essential elements of felony murder proven beyond a
reasonable doubt To the extent that Mr. Ivery has separately challenged his felonious-assault
conviction based upon the State’s alleged failure to prove the required mens rea, we likewise reject
that argument.
Lastly, Mr. Ivery argues that the State presented insufficient evidence to support
his attempted-murder conviction. Sections 2923.02(A) and 2903.02(A) govern attempted murder
and provide that “[n]o person, purposely or knowingly, and when purpose or knowledge is
sufficient culpability for the commission of an offense, shall engage in conduct that, if successful,
would constitute or result in * * * [murder.]” “When a person fires a gun into a group of people,

Sandra Kurt, Summit County Clerk of Courts

06/17/2020 09:02:16 AM

CA-28551

ORD-DECI

Page 10 of 18

10

one can infer intent to cause death.” State v. Hubbard, 10th Dist. Franklin No. 11AP-945,2013Ohio-2735,123.
Here, Mr. Ivery fired his gun in a crowded bar. The bullets struck and/or grazed
several bar patrons. Viewing this evidence in a light most favorable to the State, we conclude that
a rational trier of fact could have found the essential elements of attempted murder proven beyond
a reasonable doubt. See Hubbard at f 19-24 (holding that sufficient evidence existed to support
the defendant’s attempted-murder conviction when the State presented evidence indicating that the
defendant fired five shots in rapid succession toward a group of people, killing one person); State
v. Banks, 10th Dist. Franklin No. 01AP-1179, 2002-0hio-3341,

26 (holding that sufficient

evidence existed to support the defendant’s attempted-murder conviction when the State presented
evidence indicating that the defendant fired a gun randomly into a crowded bar, injuring one patron
and paralyzing another).
fl[17} To the extent that the arguments contained in Mr. Iveiy’s first assignment of error
challenge the weight, not the sufficiency, of the evidence, he has not developed arguments within
his first assignment of error to support a manifest-weight challenge. This Court, therefore, will
not consider those arguments. See State v. Pleban, 9thDist. LorainNo. 10CA009789,2011-Ohio3254, f 41 (declining to address an underdeveloped argument that was beyond the scope of the
captioned assignment of error).
fl[18} In light of the foregoing, Mr. Ivery’s first assignment of error is overruled.
ASSIGNMENT OF ERROR II
THE VERDICTS IN THIS CASE FOR AGGRAVATED MURDER, MURDER,
AND ATTEMPTED MURDER WERE AGAINST THE MANIFEST WEIGHT
OF THE EVIDENCE^]

Sandra Kurt, Summit County Clerk of Courts

06/17/2020 09:02:16 AM

CA-285S1

ORD-DECI

Page 11 of 18

11
{fl9} In his second assignment of error, Mr. Ivery argues that his convictions for
aggravated murder, murder, and attempted murder were against the manifest weight of the
evidence. He also argues that his prior appellate counsel rendered ineffective assistance by failing
to develop an argument in this regard in his prior appeal. For the reasons that follow, this Court
disagrees.
{f20} A conviction that is supported by sufficient evidence may still be found to be
against the manifest weight of the evidence. State v. Thompkins, 78 Ohio St3d 380, 387 (1997);
Eastley v. Volkman, 132 Ohio St3d 328,2012-Ohio-2179, 12.
In determining whether a criminal conviction is against the manifest weight of the
evidence, an appellate court must review the entire record, weigh the evidence and
all reasonable inferences, consider the credibility of witnesses and determine
whether, in resolving conflicts in the evidence, the trier of fact clearly lost its way
and created such a manifest miscarriage of justice that the conviction must be
reversed and a new trial ordered.
State v. Otten, 33 Ohio App.3d 339, 340 (9th Dist.1986). “When a court of appeals reverses a
judgment of a trial court on the basis that the verdict is against the weight of the evidence, the
appellate court sits as a ‘thirteenth juror9 and disagrees with the fact[-]finder’s resolution of the
conflicting testimony.” Thompkins at 387, quoting Tibbs v. Florida, 457 U.S. 31, 42 (1982). An
appellate court should exercise the power to reverse a judgment as against the manifest weight of
the evidence only in exceptional cases. Otten at 340.
fl[21} Importantly, “the weight to be given the evidence and die credibility of the
witnesses are primarily for the trier of the facts.” State v. DeHass, 10 Ohio St.2d 230 (1967),
paragraph one of the syllabus. ‘In sifting through conflicting evidence presented at trial, the trier
of fact is free to believe or disbelieve any, or all, of the testimony from each witness.” State v.
Jimenez, 9th Dist Medina No. 18CA0017-M, 2019-Ohio-1693,125. “This Court has consistently
held that ‘[w]e will not overturn a conviction as bang against the manifest weight of the evidence

Sandra Kurt, Summit County Clerk of Courts

CA-28551

06/17/2020 09:02:16 AM

ORD-DECI

Page 12 of 18

12
simply because the trier of fact chose to believe the State’s version of events over another
version.’” (Alteration sic.) Jimenez at |25, quoting State v. Fry, 9th Dist Medina No. 16CA0057M, 2017-0hio-9077, If 13.
flf22} The crux of Mr. Ivery’s manifest-weight argument is that he did not have the mens
rea required to be convicted of aggravated murder, murder, and attempted murder. Instead, he
argues, the evidence shows that he acted recklessly, and that he was convicted because of the
repeated references to Justin being an Akron police officer. He asserts that he simply returned to
the bar after leaving because he forgot his chicken wings, and that he fired his gun in self-defense.
He provided testimony in this regard at trial. He also asserts that, to the extent that any of his
arguments in his first assignment of error, relate to the manifest-weight, not the sufficiency, of the
evidence, this Court should evaluate those arguments under the manifest-weight standard.
flf23) As previously noted, the jury was “free to believe or disbelieve any, or all, of the
testimony from each witness[,]” and this Court will not overturn Mr. Ivery’s convictions simply
because the jury chose to believe the State’s version of the events. Jimenez at If 25. The State
presented evidence indicating that Tiffany told the bartender to bring Mr. Ivery his check and a
box for the chicken wings he had ordered. According to the bartender, Mr. Iveiy said “I don’t
want these fucking wings[J” and pushed them to the side. He then left the bar and returned about
eight minutes later, stating that he was “not alone anymore[,]” lifting his shirt several times to
reveal a gun tucked into his waistband. The State presented further evidence indicating that Mr.
IVery fired his gun several times after Justin and other bar patrons approached him in an attempt
to take his gun from him. Two of those shots struck Justin in the torso, killing him. Having
reviewed the record and the arguments presented, this Court cannot say that Mr. Ivery has

Sandra Kurt, Summit County Clerk of Courts

06/17/2020 09:02:16 AM

CA-28551

ORD-DECI

Page 13 of 18

13
established that the jury clearly lost its way in finding him guilty of aggravated murder, murder,
and attempted murder. Accordingly, Mr. Ivery’s second assignment of error is overruled.
ASSIGNMENT OF ERROR IH
PURSUANT TO THE DEFENDANT’S RIGHT TO DUE PROCESS AND
EQUAL PROTECTION, THE TRIAL COURT EMPLOYED THE WRONG
LEGAL STANDARD FOR EXAMIN[IN]G THE SUITABILITY OF A JUROR,
THEREBY ENTITLING THE DEFENDANT TO A NEW TRIAL[.J
fl[24} In his third assignment of error, Mr. Ivery argues that the trial court violated his
constitutional rights by erroneously removing a juror for cause. He also argues that his prior
appellate counsel rendered ineffective assistance by failing to develop an argument in this regard
in his prior appeal. For the reasons that follow, this Court disagrees.
fl[25} “The Revised Code and the Rules of Criminal Procedure both include catchall
provisions allowing prospective jurors to be challenged for cause if they are ‘unsuitable for any
other cause to serve as a juror.’” State v. Thompson, 141 Ohio St3d 254, 2014-Ohio-4751, f 83,
quoting RC. 2945.25(0) and Crim.R. 24(C)(14). “A trial court’s application of this provision is
reversible only for an abuse of discretion.” Id “An abuse of discretion occurs if the trial court
acted in a manner that was arbitrary, unreasonable, or unconscionable.” State v. Huguley, 9th Dist.
Summit No. 28322,2017-0hio-8300, f 15, citing Blakemore v. Blakemore, 5 Ohio St.3d 217,219
(1983).
fl[26} This Court explained the trial court’s removal of the juror at issue in our prior
decision as follows:
[A]fter the trial had commenced, the State moved to remove an African American
juror for cause because monitoring of Ivery’s jail calls indicated that the juror
approached a woman who had been in the courtroom and inquired about a friend
she was with the day before. The State argued that the juror violated the trial court’s
admonition to not communicate with anyone in the courtroom. The trial court
questioned the juror about the interaction, who initially denied that he had
communicated with anyone. After the trial court provided additional information,

Sandra Kurt, Summit County Clerk of Courts

06/17/2020 09:02:16 AM

CA-28S51

ORD-DECI

Page 14 of 18

14

the juror eventually admitted that he had talked to the woman, but indicated it had
nothing to do with die case; he was only inquiring about the woman’s friend in a
flirtatious manner.
The trial court determined that the juror’s failure to be forthright with information
about the interaction, including the fact that he only admitted to the interaction after
the trial court confronted him with additional information, indicated that the juror
was “deceptive and that he lied to the Court * *
The trial court made clear that
this was not a preemptory challenge and was “not an issue of race” that implicated
Batson. The trial court then found that the “juror * * * violated the Court’s order
about contacting people outside of the courtroom and # * * got caught lying to the
Court.” It, therefore, removed the juror from the case for that reason.
Ivery, 2018-Obio-2177, at f 20-21.
fl[27} Mr. Ivery argues that the trial court failed to consider whether the juror at issue
could still serve as an impartial juror, and cites Section 2945.25(B) in support of his position. That
Section provides that a juror in a criminal case may be challenged for cause if the juror “is
possessed of a state of mind evincing enmity or bias toward the defendant or the state[.]” R.C.
2945.25(B). That Section further provides that:
no person summoned as a juror shall be disqualified by reason of a previously
formed or expressed opinion with reference to the guilt or innocence of the accused,
if the court is satisfied, from examination of the juror or from other evidence, that
he will render an impartial verdict according to the law and the evidence submitted
to the jury at the trial[.]
Id Mr. Ivery also argues that the trial court erroneously applied the less-stringent standard
applicable to peremptory challenges, and not the higher standard applicable to challenges for
cause. Having reviewed the record, this Court disagrees. This is not a situation contemplated
under Section 2945.25(B) wherein a juror previously expressed a bias, and then the trial court did
not further examine the juror to determine if that juror could still render an impartial verdict
Instead, as the trial court made clear on the record, the trial court removed the juror for cause on
the basis that the juror violated its admonition to not communicate with anyone in the courtroom,
and then lied to the court about doing so. Under these facts, this Court cannot say that the trial

Sandra Kurt, Summit County Clerk of Courts

CA-28551

06/17/2020 09:02:16 AM

ORD-DECI

Page 15 of 18

15
court abused its discretion when it removed the juror at issue for cause. Mr. I very’s third
assignment of error is overruled.
ASSIGNMENT OF ERROR IV
TRIAL COURT ERRED IN REFUSING TO INSTRUCT THE JURY ON
RECKLESS HOMICEDE[.]
fl[28} In his fourth assignment of error, Mr. Ivery argues that the trial court committed
plain error by not instructing the jury on reckless homicide. He also argues that his prior appellate
counsel rendered ineffective assistance by failing to develop an argument in this regard in his prior
appeal, For the reasons that follow, this Court disagrees.
fl[29} We begin our review by addressing the plain-error standard. Criminal Rule 52
provides that “[pjlain errors or defects affecting substantial rights may be noticed although they
were not brought to the attention of the court.” “There are three requirements to finding plain
error. First, there must be an error. Second, the error must be obvious. Lastly, the error must have
affected the outcome of the trial.” (Internal citations omitted.) State v. Proctor, 9th Dist. Summit
No. 26740,2013-Ohio-4577, ^ 4. “Courts should notice plain error only with the utmost caution,
under exceptional circumstances, and only to prevent a manifest miscarriage ofjustice.” State v.
Grant, 9th Dist. Summit No. 29259,2019-Ohio-3561, If 5, citing State v. Morgan, 153 Ohio St.3d
196,2017-Ohio-7565, Tf 37. We now turn to the law regarding reckless homicide and the issuance
ofjury instructions.
fl]30} “[RJeckless homicide is a lesser included offense of murder[.]” State v. Elwell, 9th
Dist Lorain No. 06CA008923, 2007-0hio-3122, f 39. Section 2903.041 governs reckless
homicide and provides that “[n]o person shall recklessly cause the death of another[.]” “A person
acts recklessly when, with heedless indifference to the consequences, the person disregards a

Sandra Kurt, Summit County Clerk of Courts

CA-28S51

06/17/2020 09:02:16 AM

ORD-DECI

Page 16 of 18

16
substantial and unjustifiable risk that the person’s conduct is likely to cause a certain result or is
likely to be of a certain nature.” R.C. 2901.22(C).
{^(31} “[A] defendant is entitled to a jury instruction on a lesser included offense when
the evidence presented at trial reasonably supports both an acquittal of the crime charged and a
conviction of the lesser included offense[.]” State v. Pawe, 9th Dist. Summit No. 21026, 2002Ohio-6034, f 58. “However, some evidence is not enough; sufficient evidence must be presented
that would allow ajuiy to reasonably reject the greater offense and find the defendant guilty of the
inferior-degree offense.” Id “When making this determination, the evidence must be viewed in
a light most favorable to the defendant” Id
fl[32} Here, Mr. Ivery maintained at trial - and again on appeal - that he acted in selfdefense. As this Court stated in our prior decision, “Ivery testified that he fired his gun because
he feared for his life when the three men surrounded him and reached for his gun. He testified that
he thought the men would ‘take it and kill [him,]’ so he ‘defended] [him]self.’” Ivery, 2018-Ohio2177, at U 13. Notwithstanding, he argues that the jury could have found that he acted recklessly
by bringing a gun into the bar and indiscriminately firing it four times without aiming to hit a
particular person.
{f33} Having reviewed the record, including Mr. Ivery’s trial testimony, this Court
concludes that the evidence presented at trial was not sufficient to allow the jury to reasonably
reject the murder charge and find Mr. Ivery guilty of reckless homicide. See State v. Thomas, 9th
Dist. Summit No. 27266, 2015-Ohio-2935, f 30-31 (holding that the trial court did not commit
plain error by not instructing the jury on reckless homicide when the defendant admitted that he
shot the victim in self-defense); State v. McCurdy, 1st Dist. Hamilton No. C-020808,2003-Ohio5518, ^ 15 (holding that the defendant was not entitled to a reckless-homicide jury instruction

Sandra Kurt, Summit County Clerk of Courts

CA-28SS1

06/17/2020 09:02:16 AM

ORD-DECI

Page 17 of 18

17.
when he conceded that he shot the victim in self-defense). The trial court, therefore, did not
commit plain error by not instructing the jury on reckless homicide. Mr. Ivery’s fourth assignment
of error is overruled.
IE.
fl[34) Mr. Ivery’s assignments of error are overruled. This Court confirms our decision
in State v. Ivery, 9th Dist. Summit No. 28551,2018-Ohio-2177, and affirms the judgment of the
Summit County Court of Common Pleas.
Judgment affirmed.

There were reasonable grounds for this appeal.
We order that a special mandate issue out of this Court, directing the Court of Common
Pleas, County of Summit, State of Ohio, to carry this judgment into execution. A certified copy
of this journal entry shall constitute the mandate, pursuant to App.R. 27.
Immediately upon the filing hereof, this document shall constitute the journal entry of
judgment, and it shall be file stamped by the Clerk of the Court of Appeals at which time the period
for review shall begin to run. App.R. 22(C). The Clerk of the Court of Appeals is instructed to
mail a notice of entry of this judgment to the parties and to make a notation of the mailing in the
docket, pursuant to App.R. 30.
Costs taxed to Appellant

DONNA J. CARR
FOR THE COURT

Sandra Kurt, Summit County Clerk of Courts

06/17/2020 09:02:16 AM

CA-28551
"l* '

ORD-DECI

Page 18 of 18

18

HENSAL, J.
SCHAFER, J.
CONCUR.
APPEARANCES:
EDDIE SIPPLEN, Attorney at Law, for Appellant
SHERRI BEVAN WALSH, Prosecuting Attorney, and C. RICHLEY RALEY, JR., Assistant
Prosecuting Attorney, for Appellee.

Sandra Kurt, Summit County Clerk of Courts

